CERTIFICATE OF SERVICE
I hereby certify that on February 12, 2021, I served this brief on all
parties required to be served by mailing a copy of the brief to be delivered via
email, addressed as follows:
S. Jill Benton
Federal Defender Program, Inc.
Suite 1500, Centennial Tower
101 Marietta Street, NW
Atlanta, Georgia 30303
Jill_Benton@fd.org
David J. Sheehan
Seanna R. Brown
BAKER & HOSTETLER, LLP
45 Rockefeller Plaza
New York, New York 10111
dsheehan@bakerlaw.com
sbrown@bakerlaw.Com

/s/ Sabrina D. Graham
Sabrina D. Graham

